<html>
<title> - NORTH KOREAN MISSILE PROLIFERATION</title>
<body><pre>[Senate Hearing 105-241]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-241


 
                   NORTH KOREAN MISSILE PROLIFERATION

=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON INTERNATIONAL SECURITY,
                  PROLIFERATION, AND FEDERAL SERVICES

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 21 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs




                     U.S. GOVERNMENT PRINT OFFICE
00-000 cc                  WASHINGTON : 1997
_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402
                   COMMITTEE ON GOVERNMENTAL AFFAIRS



                   FRED THOMPSON, Tennessee, Chairman
SUSAN M. COLLINS, Maine              JOHN GLENN, Ohio
SAM BROWNBACK, Kansas                CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         JOSEPH I. LIEBERMAN, Connecticut
THAD COCHRAN, Mississippi            DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI, New Jersey
BOB SMITH, New Hampshire             MAX CLELAND, Georgia
ROBERT F. BENNETT, Utah
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk
                                 ------                                

   SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL 
                                SERVICES

                  THAD COCHRAN, Mississippi, Chairman
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI, New Jersey
BOB SMITH, New Hampshire             MAX CLELAND, Georgia
                   Mitchel B. Kugler, Staff Director
                Linda Gustitus, Minority Staff Director
                       Julie Sander, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1
    Senator Levin................................................     2

                               WITNESSES
                       Tuesday, October 21, 1997

Ju-Hwal Choi, Former Official, Ministry of the People's Army, 
  South Korean; accompanied by B.J. Kim, Interpreter.............     3
    Prepared statement...........................................     6
Young-Hwan Ko, Former Official, Ministry of Foreign Affairs, 
  North Korea, accompanied by B.J. Kim, Interpreter..............     4
    Prepared statement...........................................    11

                                APPENDIX

Questions and responses from Mr. Einhorn submitted by Senator 
  Cochran........................................................    33


                   NORTH KOREAN MISSILE PROLIFERATION

                              ----------                              


                       TUESDAY, OCTOBER 21, 1997

                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:49 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thad Cochran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cochran and Levin.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Good morning. The topic of our 
Subcommittee's hearing today is North Korean Missile 
Proliferation. The threats posed by North Korea and its 
programs to acquire weapons of mass destruction and their 
delivery means are formidable. North Korea has long sought to 
acquire nuclear weapons, and has even suggested that it may 
already have them, threatening in 1994 to turn Seoul into a 
``sea of fire'' if hostilities broke out on the Korean 
peninsula.
    According to the Defense Intelligence Agency, North Korea 
has a sophisticated chemical weapons program and the ability to 
produce biological warfare agents and weapons, and it has an 
aggressive program to develop and deploy the delivery means for 
these weapons. It has for some time possessed the ability to 
strike all of South Korea with ballistic missiles, and 
according to Admiral Preuher, Commander-in-Chief of U.S. forces 
in the Pacific, North Korea has already begun to deploy parts 
of No-Dong missile systems that are capable of reaching Japan.
    But there is another aspect of the North Korean 
proliferation problem that is perhaps even more worrisome. In 
addition to being a recipient of technology for weapons of mass 
destruction and their delivery systems, North Korea is also a 
supplier, providing ballistic missiles and their production 
technology to other states.
    For example, North Korea acquired 300-kilometer-range Scud-
B missiles in 1981, taught itself in a few short years how to 
produce them, and then sold them to Egypt, Iran and Syria. It 
used the experience gained with the Scud-B to produce the 550-
kilometer-range Scud-C, which it tested in 1990 and sold to 
Iran, Syria and Libya. In 1993, it tested the 1,000-kilometer-
range No-Dong 1, which Pentagon officials have reportedly said 
is a basis for Iran's longer-range Shahab missiles which could 
give Iran the capability to strike as far as Central and 
Western Europe.
    Because North Korea has exported every missile it has 
built, in some cases even before it has deployed them, it is 
not unreasonable to assume that it will export the two long-
range missiles it is now developing, the 2000-kilometer Taepo-
Dong 1 and the 6,000-kilometer Taepo-Dong 2. The Taepo-Dong 2's 
6,000-kilometer range will make it capable of hitting the 
United States from North Korea.
    North Korea presents a new wrinkle to the problem of 
missile proliferation, one that is different from the other 
proliferants this Subcommittee has examined this year. In 
addition to the missiles themselves, North Korea has made a 
practice of selling the technology needed to produce these 
weapons. In doing so, it has created a missile trade among 
other states, creating a bootstrap effect in which other states 
are becoming self-sufficient with respect to ballistic missile 
technology. We can only hope that the North Korean example 
hasn't created a template for rogue states.
    This phenomenon is likely to continue because North Korea 
is desperately dependent on the hard currency generated by the 
sales of these weapons. An estimated 30 percent of North 
Korea's export income is generated by arms sales, with 
ballistic missile technology accounting for a high percentage 
of those sales. Ballistic missiles are essentially North 
Korea's only cash crop. Because of its dire economic situation, 
it is not likely that North Korea will be dissuaded from 
marketing that crop.
    This hearing, then, will examine the extent of the North 
Korean ballistic missile proliferation problem. We have with us 
two witnesses who are former North Korean government officials 
and who have unique insights into the views of the North Korean 
government.
    Colonel Ju-Hwal Choi is the highest ranking military 
defector from North Korea and served in the Ministry of the 
People's Army. Mr. Young-Hwan Ko is a former North Korean 
diplomat who served in the Ministry of Foreign Affairs. Both 
are now at the Research Institute for North Korean Affairs in 
Seoul and will be testifying today with the assistance of an 
interpreter.
    Mr. Robert Einhorn, Deputy Assistant Secretary of State for 
Nonproliferation, was scheduled to testify today, but is unable 
to be here because he is in China preparing for next week's 
summit meeting. We will therefore submit questions to Mr. 
Einhorn for the record.\1\
---------------------------------------------------------------------------
    \1\ Questions and responses from Mr. Einhorn submitted by Senator 
Cochran appears in the Appendix on page 33.
---------------------------------------------------------------------------
    We want to introduce, as well, the translator, Mr. Kim, and 
welcome him and our two witnesses to the hearing today. But 
before receiving your statements, I want to call upon and yield 
to my good friend, the distinguished Senator from Michigan, 
Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman, and let me add my 
welcome to our witnesses today. This hearing concerns an 
interest of considerable importance to the United States, and 
that is the North Korea missile production and proliferation.
    This missile production in North Korea is a problem that is 
at least two-fold for us, as the Chairman mentioned. First is 
the indigenous efforts in North Korea to develop ballistic 
missiles for its own possible use. We have heard a great deal 
about these efforts in recent years as North Korea has worked 
on both No-Dong and Taepo-Dong classes of missiles with longer 
and longer ranges.
    But the other dimension is the problem that is created by 
North Korea's efforts, and successful efforts, to sell its 
missiles and missile technology to other nations, including 
nations with hostile policies toward the United States and our 
allies. North Korea has supplied missiles and technology to a 
number of such nations, motivated probably by the need to earn 
hard currency or any kind of assistance, such as oil supplies, 
that will help a failing economy. Today's hearing offers us an 
unusual opportunity to hear from two former North Korean 
officials, and their information is an important piece of a 
larger picture that we are trying to develop on North Korea.
    And I am glad that we will be submitting questions to Mr. 
Einhorn. It would have been helpful if he had been able to be 
here, actually, to answer those questions, and perhaps, in 
addition to submitting questions for the record, at a later 
date, Mr. Chairman, someone from the State Department might be 
called at a hearing to give us some fuller information about 
the North Korean nuclear weapons program; the framework 
agreement, how that is working out, as well as the missile 
technology and the missile issue itself.
    So I want to thank you, Mr. Chairman, for this important 
hearing. It does give us an unusual opportunity to get a window 
on a part of the world that has been closed to us.
    Senator Cochran. Thank you very much, Senator Levin, and I 
agree with you that it is important for us to have testimony 
from the State Department and maybe other administration 
officials, other departments as well on this subject, and we 
will endeavor to get that information for our hearing record.
    Let me call on now our distinguished witnesses. Thank you 
for being here. First, we will hear from Colonel Choi, and the 
way we propose to provide the Subcommittee with testimony is 
for them to introduce themselves and have the translator read 
into the record the statement that they have prepared.
    Welcome, Colonel Choi.

  TESTIMONY OF JU-HWAL CHOI, FORMER OFFICIAL, MINISTRY OF THE 
     PEOPLE'S ARMY, NORTH KOREA; ACCOMPANIED BY B.J. KIM, 
                          INTERPRETER

    Mr. Choi. It is a great honor to be able to testify here. 
It is a great honor for myself. I entered the North Korean Army 
in 1968. I became an officer in 1972. I worked as an officer 
for the external affairs bureau of the People's Army from 1972 
until 1994.
    From January 1995, I worked for Yung-Seong Trading Company 
that belongs to the People's Armed Forces. I was a colonel at 
the time of defection.
    Thank you very much.
    Senator Cochran. Thank you.
    Our other witness, Mr. Ko, we can proceed to hear your 
introduction.

   TESTIMONY OF YOUNG-HWAN KO, FORMER OFFICIAL, MINISTRY OF 
    FOREIGN AFFAIRS, NORTH KOREA; ACCOMPANIED BY B.J. KIM, 
                          INTERPRETER

    Mr. Ko. It is also my great honor to be able to be here. 
But I have to confess that I do have a mixed feeling. Right now 
my brother inside North Korea is in the political prisoners 
camp because of my defection, and what I will say today, a 
large part of it will be coming from what he told me before, 
and, therefore, through--because of my testimony here, I am 
worried whether he will have to bear more pain and suffering 
from now on.
    I worked for the Ministry of Foreign Affairs from 1978 
until 1991. At the time of my defection, I was the first 
secretary working for the North Korean Embassy in Congo.
    Thank you very much.
    Senator Cochran. Thank you.
    Mr. Kim, if you would proceed to read the statements, we 
would appreciate that. And we would hear Colonel Choi's 
statement first.
    Mr. Kim. Yes, that is correct.
    [Mr. Kim reading Colonel Choi's statement]
    I would like to describe North Korean weapons of mass 
destruction.
    It is widely known inside North Korea that North Korea has 
produced, deployed, and stockpiled two or three nuclear 
warheads and toxic material such as over 5,000 tons of toxic 
gases. The North Koreans also know that North Korea has 
developed and deployed rockets with a range of 1,000 
kilometers. The North Korean people also know that the North is 
at the final stage of developing rockets with a range of 5,000 
kilometers. North Korea acquires powerful and destructive 
weapons with political and military purposes in mind. By having 
these weapons, the North is able to prevent itself from being 
slighted by such major powers as the United States, Russia, 
China, and Japan, and also they are able to gain the upper hand 
in political negotiations and talks with those superpowers.
    On the military front, North Korea can deal a blow to the 
40,000 U.S. forces stationed in the South, and they can target 
the U.S. defense facilities and the Japanese defense facilities 
inside Japan, thereby effectively destroying supply bases in 
times of war. With these weapons, the North Korea can attack 
the U.S. homeland, starting with Alaska, in a war where there 
will be no victor or no loser.
    Since the mid-1970s, the North Korea has launched its 
efforts to build rockets by itself. As part of the effort, the 
North build rocket facilities for Soviet-designed and -produced 
Scud missiles, and they began R&D activities for rocket 
production in the military academy in Youngseung area of 
Pyongyang. As a result, the North was able to produce SS 
rockets with a range of 250 to 300 kilometers by the end of the 
1980s. According to Vice Marshal and former First Deputy 
Minister of People's Armed Forces Kim Kwang-jin, the North 
succeeded in developing and producing rockets with a range of 
more than 4,000 kilometers. He said that once the North Korea 
develops rockets with a range of 1,000 kilometers, it is not so 
difficult to develop rockets with a range of 5,000 or over 
10,000 kilometer range. He mentioned this when he visited China 
as the head of the North Korean military delegation.
    There are a number of rocket facilities inside North Korea. 
They include the 125 Factory in Pyongyang, the Number 26 
Factory in Kangkye of Jakangdo area, the Yakjeon Machinery 
Factory in Mankeyungdae, and January 18th factory in Kagamri, 
Kaecheon-kun area in the south province of Pyongahn.
    The Number 125 Factory was open to the military delegation 
from Iraq--I'm sorry--military delegation from Iran and Egypt. 
The delegation inspected rocket assembly lines.
    Since the North uses mostly mobile rocket launchers, not 
fixed ones, it is assumed that the North does not have fixed 
rocket launchers.
    However, as far as I know, there are intermediate-range 
rocket bases in Sangwon-kun in Pyongyang and Hwadae-kun in the 
north province of Hamkyung.
    North Korea has been engaged in a plan to develop missiles 
jointly with Egypt. At the request of Egyptian President 
Mubarak, Kim Il-sung in the early 1980s transferred missile 
technology to Egypt and dispatched a group of North Korean 
experts to the country. The two countries seem to have 
maintained this relationship continuously. As a result, Egypt 
during the mid-1980s was successful in manufacturing 400-
kilometer range surface-to-surface missiles. I confirmed this 
fact in 1989 when I met the chief of the General Bureau of 
External Cooperation in the Second Economic Commission in his 
office located in Botonggang-kuyok in Pyongyang. At that time I 
visited the office on a business related with Vice Marshal Choi 
Kwang's scheduled tour to Egypt. Choi at that time was the 
chief of the General Staff of the People's Army. He was later 
named the Minister of Armed Forces.
    North Korea has been exporting missiles to Iran since 
before the Iran-Iraq War. North Korea has exported a large 
amount of surface-to-surface and surface-to-air missiles to 
Iran.
    The Chemical Bureau in the Armed Forces Ministry once 
boasted that North Korea has been able to complete the chemical 
warfare preparation thanks to Kim Joung-chan.
    All officers, including general-level officers, are 
obligated to participate in anti-nuclear and anti-chemical 
warfare training twice a year, in spring and during the fall. 
During this training the experiments are conducted: a dog and a 
rabbit are put in separate glass tubes and a poison gas is 
blown in, then these animals will die within 20 seconds. These 
gas bombs are designed to be delivered by rocket launchers or 
howitzer.
    Some Americans believe that even if North Korea possessed 
the ability to strike the United States, it would never dare to 
because of the devastating consequences. But I do not agree 
with this idea. If a war breaks out in the Korean Peninsula, 
the North's main target will be the U.S. forces based in the 
South and Japan. That is the reason why the North has been 
working furiously on its missile programs. Kim Jong-il believes 
that if North Korea creates more than 20,000 American 
casualties in the region, the U.S. will roll back and the North 
Korea will win the war.
    Thank you very much.
    Senator Cochran. Thank you. Mr. Kim, I believe that page 
5--4 may have been omitted. It starts out, ``The Production of 
Chemical Weapons (The 5th General Bureau).''
    Mr. Kim. Yes, I am sorry. Page 4 was mixed in. I missed it. 
Could I add page 4?
    Senator Cochran. Please do it now.
    Mr. Kim. Thank you very much.
    The Hamhung Branch and three other institutes under the 
Second Natural Science Academy are responsible for research and 
production of chemical weapons, and seven factories scattered 
throughout the country are manufacturing these weapons as well 
as various anti-chemical equipment. The Germ Research Institute 
in the military medical department under the General Logistics 
Bureau of the Armed Forces Ministry is responsible for 
developing biological weapons.
    North Korea is currently producing various kinds of poison 
gases, including nerve gas, blister gas, among others. These 
agents are produced at various factories inside the North 
Korea.
    Kim Jong-chan, a major who served as an assistant military 
attache at the North Korean Embassy in East Germany in late 
1970s, is said to have obtained the technical data for 
manufacturing extremely poisonous gases from Germany. Based on 
this new technology, North Korea has begun to manufacture new 
kinds of poison gases since the mid-1980s.
    It is said that Dr. Li Sung-gi, who is known to have 
developed vinalon, which is a synthetic fiber made from 
limestone, have participated in the project to develop the new 
gas. Kim Joung-chan made a quick advancement, thanks to his 
achievement. He was promoted to the rank of colonel in 1984 and 
was named the chief of External Business Affairs Bureau, which 
is a position usually occupied by a general-level officer, in 
the Armed Forces Ministry.
    [The prepared statement of Mr. Choi follows:]

                   PREPARED STATEMENT OF CHOI JU-HWAL
                 north korean mass destruction weapons
    I am Choi Ju-hwal, I served in the Ministry of People's Army from 
1968 to 1995. I defected from m y post as Colonel and Chief of joint 
venture section of Yung-Seong Trading Company under the Ministry of 
People's Army. I would like to describe North Korean weapons of mass 
destruction.
    It is widely known in North Korea that North Korea produces, 
deploys and stockpiles two or three nuclear warheads and toxic material 
such as over 5,000 tons of toxic gas. It also developed and deployed 
rockets such as Nodong 1 and Nodong 2 with a range of 1,000 Km. The 
North Korean people know that the North is at the final stage of 
developing Taepodong rockets with a range of 5,000 Km. North Korea 
acquires powerful and destructive weaponry with political and military 
purposes in mind. By having the weapons, the North is able to prevent 
itself from being slighted by such major powers as the U.S., Russia, 
China and Japan and also to gain the upper hand in political 
negotiations and talks with them.
    On the military front, the North can deal a blow to the 40,000 U.S. 
forces stationed in the South and target the U.S. defense facilities 
and the Japanese defense facilities in Japan, thereby effectively 
destroying supply based in times of war. With the weaponry, the North 
can wreak havoc on the U.S., including Alaska, in a war where there is 
no victor nor loser. The 2nd Economic Committee, which is in charge of 
its defense industry, is run by the Party Central Committee. In the 
Party Central Committee, Secretary Chun Byung-ho is in charge of the 
defense industry and runs the Department of Machinery Industry. The 2nd 
Economic Committee is located in Kangdongkun of Pyongyang and consists 
of eight General Bureaus and one bureau, the 2nd National Science 
Institute, and one trading company for material. The 4th General Bureau 
and the 5th General Bureau produce rockets and chemical weapons.
  production, deployment and sales of rockets (the 4th general bureau)
Production of Rockets
    Since the mid-197O's, the North has launched its effort to build 
rockets by itself. As part of the effort, the North built rocket 
factories for Scuds from the Soviet Union and began R&D activities for 
rocket production in the National Defense Institute in the Yongseung 
Area of Pyongyang. As a result, the North was able to produce SS 
rockets with a range of 250 to 300 Km by the end of 1980's. According 
to Vice Marshal and former First Deputy Minister of People's Armed 
Forces Kim Kwang-jin (Vice Marshal of Armed Equipment), the North 
succeeded in developing and producing rockets with a range of more than 
4,000 Km. He said that once the North develops rockets with a range of 
1,000 Km, it is not so difficult to develop rockets with a range of 
5,000 Km to over 10,000 Km. According to him, the range of rockets 
depends on propellants and fuel. This is what he mentioned when he 
visited China as the head of the North Korean military delegation.
Rocket Factories
    There are a number of rocket factories in North Korea. They include 
the ``125 Factory'', which is commonly referred to as ``Pyongyang Pig 
Factory,'' in the Hyengjesan Area of Pyongyang, the Number 26 Factory 
in Kangkye of Jakangdo, the Yakjeon Machinery Factory in Mankeyungdae 
and the 118 Factory in Kagamri, Kaecheon-kun in the southern province 
of Pyongahn.
    ``Pyongyang Pig Factory'' (Number 125 Factory) was open to the 
military delegation from Iran and Egypt. The delegation inspected 
rocket assembly line.
Rocket Deployment
    Since the North uses mostly mobile rocket launchers, not fixed 
ones, it is assumed that the North does not have fixed rocket 
launchers.
    However, as far as I know, there are intermediate range rocket 
bases in Sangwon-kun in Pyongyang and Hwadae-kun in the northern 
province of Hamkyung.
The Export of Missiles
    North Korea has been engaged in a plan to develop missiles jointly 
with Egypt. At the request of Egyptian President Mubarak, Kim Il-sung 
in the early 1980's transferred missile technology to Egypt and 
dispatched a group of North Korean experts to the country. The two 
countries seem to have maintained this relationship continuously. As a 
result, Egypt in the mid-1980s was successful in manufacturing 400 Km 
range surface-to-surface missiles. I confirmed this fact when I met the 
chief of the General Bureau of External Cooperation in the Second 
Economic Commission in his office located in Botonggang-kuyok in 
Pyongyang in 1989. That time I visited the office on a business related 
with Vice Marshal Choi Kung's scheduled tour of Egypt. Choi at that 
time was the chief of the General Staff of the People's Army. He was 
named the minister of Armed Forces later.
    North Korea has been exporting missiles to Iran since before the 
Iran-Iraq War. North Korea has exported a large amount of surface-to-
surface and surface-to-air missiles to Iran.
      the production of chemical weapons (the 5th general bureau)
    The Hamhung Branch and three other institutes under the Second 
Natural Science Academy are responsible for research and production of 
chemical weapons, and seven factories scattered throughout the country 
are manufacturing these weapons as well as various anti-chemical 
equipment. The Germ Research Institute in the General Logistic Bureau 
of the Armed Forces Ministry is responsible for developing biological 
weapons.
    North Korea is currently producing various kinds of poison gas 
including nerve gas, blister gas, among others. These factories include 
the Kangye Chemical Factory in Jangang Province, the Sakju Chemical 
Factory in North Pyongan Province, the ``February 8'' Vinalon Factory 
in Hamhung, North Hamgyong Province, the Ilyong Branch of the Sunchon 
Vinalon Factory in South Pyongan Province, the Factory No. 297 in 
Pyongwon, South Pyongan Province. There are other chemical factories in 
Bongung, Hamhung City, South Hamgyong Province, Hyesan City Yanggang 
Province, and Kangye City, Jagang Province.
    Kim Jong-chan (major), who served as an assistant military attache 
at the North Korean Embassy in East Germany in late 1970's, is said to 
have obtained the technological data for manufacturing extremely 
poisonous gas from Germany. Based on this new technology, North Korea 
has begun to manufacture new kinds of poison gas since the mid-1980s.
    It is said that Dr. Li Sung-gi, who is known to have developed 
vinalon (a synthetic fiber made from limestone), have participated in 
the project to develop the new gas. Kim Joung-chan made a quick 
advancement, thanks to his achievement. He was promoted to the rank of 
colonel in 1984 and named the chief of the External Business Affairs 
Bureau, a position usually occupied by a general-grade officer, in the 
Armed Forces Ministry.
    The Chemical Bureau in the Armed Forces Ministry once boasted that 
North Korea had been able to complete the chemical warfare preparation, 
thanks to Kim Joung-chan.
    All officers, including general-grade officers, are obliged to 
participate in anti-nuclear and anti-chemical warfare training twice a 
year (in spring and autumn). During this training the experiments are 
conducted: a dog and a rabbit are put in separate glass tubes, 
respectively, and a poison gas is blown in, then these animals will die 
within 20 seconds. The gas bombs are designed to be delivered by rocket 
launchers or howitzer.
    Some Americans believe that even if North Korea possessed the 
ability to strike the U.S., it would never dare to because of the 
devastating response. But I do not agree with this idea. If a war 
breaks out in the Korean Peninsula, the North's main target will be the 
U.S. forces based in the South and Japan, which is the reason that the 
North has been working furiously on its missile programs. Kim Jong-il 
believes that if North Korea brings 20,000 American casualties in the 
region, it would win a war.

    Senator Cochran. That concludes the colonel's statement, 
and you may proceed to present the statement of Mr. Ko.
    Mr. Kim. Thank you. I will make sure the numbers are 
correct this time.
    [Mr. Kim reading Mr. Ko's statement]
    I would like to describe North Korean missiles.
    Recognizing the dire need for missile development, Kim Il-
sung established the National Defense University in Hamheung in 
1965. After the Pueblo incident in January 1968, it was moved 
to the city of Kangkye where defense facilities, these were 
concentrated. The elites of the North Korea are screened to 
enter the university where they study for 7 years to graduate. 
The first department used to be the Department of Missile 
Engines. My older brother, the first son of our family, 
graduated from the department. The textbooks he had studied 
ranged from designs of V-1 and V-2 type missiles to those of 
the Soviet-made short-range surface-to-surface missiles, 
commonly referred to as Frog missiles.
    In 1965, Kim Il-sung said to Kim Chang-bong, who was the 
National Defense Minister, the following: ``We must develop 
rockets for war. That is why I build the National Defense 
University.'' He also said, ``If a war breaks out, the United 
States and Japan will also be involved. In order to prevent 
their involvement, we have to be able to produce rockets that 
fly as far as Japan. Therefore, it is the mandate for the 
National Defense University to nurture those personnel who will 
develop mid- and long-range missiles.''
    These remarks were written on the first page of the 
textbooks my brother studied at the university. He graduated 
from the university in 1972 and was sent as missile engine 
design expert to a design lab in the southern province on 
Pyongahn. The lab served as the underground factory producing 
engines for missiles, rocket ships, torpedoes, and tanks. 
According to my brother, there were over 10,000 people working 
in the factory. Since the end of the 1970s, this factor has 
begun reverse engineering of Frog missiles.
    In 1981, my brother was transferred to the design labs of 
the maritime missile factory in Pyongyang. He often told me 
that he was involved in the production of missiles which can 
destroy the warships of the 7th Fleet of the United States 
naval forces which will appear in the East Sea if a war breaks 
out on the Korean Peninsula.
    According to him, the North conducted test firings of the 
missiles on the coastal areas of the Yellow Sea during the 
night time in order to avoid detection by the U.S. 
reconnaissance satellites.
    In 1988, he was transferred to the missile engine design 
lab of the National Defense University in the Pyongyang area 
where he developed mostly surface-to-surface Scud missiles and 
enhanced their capabilities. He said that North Korean missiles 
had the capability to cover the entire territory of the South 
and the waters of the Korean Peninsula.
    He said also that the North purchased the Soviet Union-made 
SS missiles, French Exocet air-to-ship missiles, and Stinger 
missiles for reverse engineering production purposes.
    A number of organizations within the North Korean 
Government are responsible for producing and exporting 
missiles. The 2nd Economic Committee is responsible for the 
defense industry in the North and is composed of 8 general 
bureaus, the fourth of which is in charge of missile 
production. Within the General Staff, the Maebong Trading 
Company is responsible for importing high-tech weapons such as 
missiles while the Yongaksan Trading Company is in charge of 
exporting North Korean weapons. Another bureau under the 
General Staff is responsible for smuggling high-tech weapons.
    According to Im Young-sun, a defector from North Korea and 
former leader of guard platoon in the Military Construction 
Bureau of the People's Armed Forces Ministry, North Korea has 
deployed missiles as the following: The Military Construction 
Bureau completed the construction of a long-range missile base 
in North Pyong-an Province in 1986 and another in North 
Hamgyong Province in 1988.
    The Taepo-Dong missile base in Hwadae County is an 
underground factory with surface-to-surface missiles designed 
to hit the Japanese area. For security reasons, all residents 
residing in the area within the radius of 80 kilometers of this 
base have been ordered to move out.
    The Military Construction Bureau started building a missile 
base in Chungganjin Province in 1990 and completed the 
construction in 1995. This base was targeting the U.S. troops 
in Okinawa.
    The Military Construction Bureau started constructing an 
underground missile base in Kangwon Province in 1991, which was 
scheduled to be completed within 6 to 7 years after the 
commencement of the work, and this base was targeting Japanese 
islands and U.S. military bases inside Japan.
    The Military Construction Bureau completed the construction 
of a missile base in Mayang Island, South Hamgyong Province, in 
late 1980s. Also, the Military Construction Bureau constructed 
a missile base designed to cover the west side of Japan.
    The Military Construction Bureau completed the construction 
of an intermediate-range missile base on Kanggamchan Mountain 
located on the opposite side of Kane-po Fisheries Cooperatives 
in Jungsan County, which is South Pyongan Province. The time of 
construction was 1985. The North Korean Navy also completed the 
construction of a surface-to-ship missile base in early 1990 on 
the same site.
    I believe that MCB, Military Construction Bureau, is 
currently constructing a long-range surface-to-surface missile 
base in Doksong County, South Hamgyong Province. North Korea 
has given various names to the Taepo-Dong missiles, such as 
Hwasong-1, which means Mars, Hwasong-2; Moksong, which means 
Jupiter, Moksong-1, Moksong-2, and so on.
    The organizations responsible for exporting missiles 
include the Yongaksan Trading Company and the Changkwang 
Trading Company under the Second Economic Commission, the 15th 
Bureau, which is the General Bureau of Technology, in the Armed 
Forces Ministry, and also Maebong General Bureau in the General 
Staff of the People's Army.
    I heard the following from Colonel Kim Young-hwan in August 
1988 when I was chatting with him at his home. Mr. Kim was one 
of my seniors at Pyongyang Foreign Language College. He later 
served as a chief of a department in the Daesong General Bureau 
and then as the deputy chief of Maebong Trading Company. He 
said the following: North Korea has been exporting missiles 
mainly to Iran, Syria, Egypt, and Libya. Egypt was North 
Korea's main counterpart for developing missiles jointly. Iran 
was also a counterpart for developing missiles jointly. Iran 
also was buying North Korean missiles, and Syria was buying 
North Korean missiles as well.
    Colonel Kim Young-hwan also said, ``The export of missiles 
occupies the largest portion of North Korea's total export 
volume, and that if North Korea is unable to export missiles to 
the Middle East countries, then its import of crude oil must be 
stopped.'' He also said that North Korea was earning about $1 
billion a year when the exports went smoothly.
    In February 1991, when I was serving as a member of the 
North Korean Embassy in Congo, the Foreign Ministry office in 
Pyongyang sent us a telegram message which instructed us 
receive a roll of North Korean film and other propaganda 
materials from a North Korean cargo ship which sailed out from 
the North Korean port of Haeju and was bound for Syria. The 
instruction was based on the fact that the cargo ship was 
scheduled to stop at the Congolese port. The message also 
instructed us to help the cargo ship to refill fuel at the 
port. But around that time, the world media began to report 
that the North Korean cargo ship seemed to be carrying 
missiles, and then Pyongyang ordered the cargo ship to return 
home.
    Later, the Foreign Ministry sent us a message saying that 
the cargo ship returned home for an inevitable reason, and the 
materials would be delivered later.
    North Korean Ambassador to Congo Ryu Kwan-jin, who was a 
close friend of Chang Song-taik, who was Kim Jong-il's brother-
in-law, told me that he once heard Chang saying that North 
Korea had been experiencing difficulties in exporting surface-
to-surface missiles to such countries as Syria, Libya, and Iran 
because of U.S. reconnaissance satellites, and, therefore, 
North Korea was transporting major parts of missiles, important 
parts of the missiles, by airplanes.
    North Korea has been exporting not only its own missiles 
but also missiles produced in third countries. Kim Yang-gon, 
who observed as a counselor in charge of trade at the North 
Korean Embassy in Zaire in April 1990, told me that North Korea 
had been importing silkworm missiles through railroads and then 
exporting it to Iran and Syria through sea routes, thus earning 
enormous amount of commissions. Kim Jong-il was known to be 
satisfied with the trade.
    Exporting missiles is crucial to the North Korean economy. 
Kim Jong-il regime is likely to continue missile production in 
order to attack Republic of Korea, Japan, and the United States 
in the times of war and to get oil from Middle Eastern 
countries as well. Therefore, I would like to say that we have 
to work together to support Republic of Korea to improve its 
missile capabilities against North Korea's threat in order to 
keep peace inside the Korean Peninsula.
    Thank you very much.
    [The prepared statement of Mr. Ko follows:]
                  PREPARED STATEMENT OF KO YOUNG-HWAN
    I am Ko Young-hwan. I served in the Ministry of Foreign Affairs of 
North Korea from 1978 to 1991. I defected from my post as the 1st 
Secretary of the DPRK Embassy in Congo in 1991. I would like to 
describe North Korean missiles.
Missile Production
    Recognizing the dire need for missile development, Kim Il-sung 
established the National Defense University (NDU) in Hamheung in 1965. 
After the Pueblo incident in January of 1968, it was moved to the city 
of Kangkye which defense facilities are concentrated in. The Kangkye 
NDU is run directly by the Ministry of People's Armed Forces.
    The elite in the military and the North Korean society are screened 
to enter the University where they study for seven years to graduate. 
The 1st Department was the Department of Missile Engines.
    My elder brother, the first son of our family, graduated from the 
Department. The text books he had studied ranged from designs of V-1 
and V-2 type missiles to those of the Soviet Union-made short-range 
surface-to-surface missiles, commonly referred to as Frog missiles.
    In 1965 Kim Il-sung said to Kim Chang-bong, National Defense 
Minister, ``it is imperative for us to develop rockets for war, which 
is why I built the NDU.'' He also said, ``if a war breaks out, the U.S. 
and Japan will also be involved. In order to prevent their involvement, 
we have to be able to produce rockets which fly as far as Japan. 
Therefore, it is the mandate for the NDU to nurture those personnel who 
are able to develop mid- and long-range missiles.''
    This remark was written on the first page of the text books my 
brother studied at the NDU. He graduated from the Kangkye NDU in 1972 
and was sent as a missile engine design expert to a design lab code 
named as ``January 18th Machinery Factory'' in Kagamri, Kaecheon-kun of 
the southern province of Pyongahn. The ``Jan. 18th Factory'' served as 
an underground munitions factory which produces engines for missiles, 
rocket ships, torpedoes and tanks. According to my brother, there were 
over 10,000 people working in the factory. Since the end of 1970's, 
``Jan. 18th Factory'' has begun reverse-engineering of Frog missiles.
    In 1981 my brother (Ko Bang-nam) was transferred to the design labs 
of the ``Surface to Sea Missile Factory'' in ``Pyonayang Mankyungdae 
Yakjun Machinery Factory'' located in Yongseong-Dong of the Yongseung 
District in Pyongyang.
    He often told me that he was involved in the production of missiles 
which can destroy the warships of the 7th Fleet of the U.S. naval 
forces which will appear in the East Sea if a war breaks out on the 
Korean Peninsula.
    According to him, the North conducted test firings of the missiles 
on the coastal areas of the Yellow Sea during the night time to avoid 
detection by the U.S. reconnaissance satellites.
    In 1988 he was transferred to the missile engine design lab of the 
National Defense Institute, also referred to as the 2nd Natural Science 
Institute at Yongseung District in Pyongyang, where he developed mostly 
surface-to-surface Scud missiles and enhanced their capabilities. He 
said that North Korean missiles had the capability to protect the 
entire territory of the South and the waters of the Korean Peninsula.
    According to him, there are other missile factories other than the 
``118 Machinery Factory'' and the ``Yakjun Machinery Factory in 
Mankyungdae'' such as the ``Pyongyang Pig Factory'' which is also 
referred to as the ``125 Factory'' in Joongyee-Dong, the Hyengjesan 
District of Pyongyang.
    He said that the North purchased the Soviet Union-made SS missiles, 
French Exocet air-to-ship missiles and Stinger missiles for reverse-
engineering production.
    There is the 2nd Economic Committee under the Party Central 
Military Commission. The Committee is responsible for the defense 
industry in the North. Secretary Chun Byung-ho of the Party Central 
Committee is in charge of the 2nd Economic Committee and Kim Chul-man, 
alternate member of the Party Political Bureau serves as the head of 
the Committee. Located in Kangdong-kun of Pyongyang, the 2nd Economic 
Committee is composed of eight General Bureaus, the National Defense 
Institute and material trading companies. The eight General Bureaus 
produce a variety of munitions. The 4th General Bureau is in charge of 
missile production.
    The Maebong General Bureau under the General Staff of the Ministry 
of People's Armed Forces is importing and exporting the parts of 
missiles.
The Deployment of Missiles
    According to Im Young-sun, a defector from North Korea and former 
leader of guard platoon in the Military Construction Bureau of the 
People's Armed Forces Ministry, North Korea has deployed missiles as 
follows: The Military Construction Bureau (MCB) completed the 
construction of a long-range missile base in Paekun-ri, Kusong County, 
North Pyong-an Province in 1986. The 117th Regiment under the MCB 
completed the construction of a missile base in Hwadae County, North 
Hamgyong Province in 1988.
    The Taepo-Dong missile base in Hwadae County is an underground 
facility with surface-to-surface missiles designed to hit the Japanese 
area. For security reasons, all inhabitants residing in the area within 
the radius of 80 Km of this base have been ordered to move out.
    The MCB started to build a missile base in Chungganjin, Huchang 
County, Jagang Province in 1990 and completed the construction in 1995. 
This base was targeted at U.S. troops in Okinawa.
    The 111th Regiment of the MCD started to construct an underground 
missile base in Ok-pyong Rodongja-ku, Munchon County, Kangwon Province 
in 1991. This base was scheduled to be completed within 6 or 7 years 
after the commencement of the work, and was targeted at Japanese 
islands and U.S. military bases in Japan.
    The 110th and 115th Regiments of the MCB completed the construction 
of a missile base on Mayang Island, Mayang-ri, Shinpo City, South 
Hamgyong Province in late 1980. The MCB also constructed a missile base 
designed to cover the West side of Japan
    The MCB completed the construction of an intermediate-range missile 
base on Mt. Kanggamchan located on the opposite side of the Kane-po 
Fisheries Cooperatives in Jungsan County, South Pyongan Province around 
1985. The North Korean Navy also completed the construction of a 
surface-to-ship missile base in early 1990 on the same site.
    I believe that the MCB is currently constructing a long-range 
surface-to-surface missile base in Doksong County, South Hamgyong 
Province. North Korea has given various names to the Taepo-Dong 
missiles, such as Hwasong (Mars)-1, Hwasong-2, Moksong (Jupiter)-1, 
Moksong-2, and so on.
The Export of Missiles
    The organizations responsible for exporting missiles include the 
Yongaksan Trading Company, and the Changkwang Trading Company under the 
Second Economic Commission, the 15th Bureau (the General Bureau of 
Technology) in the Armed Forces Ministry, the Maebong General Bureau 
(the Maebong Trading Company) in the General Staff of the People's 
Army.
    The story I heard from Colonel Kim Young-hwan, one of my seniors at 
Pyongyang Foreign Language College who later served as a chief of a 
department in the Daesong General Bureau and then as the deputy chief 
of the Maebong General Bureau (official title abroad: vice director of 
the Maebong Trading Company), is as follows: North Korea has been 
exporting missiles mainly to Iran, Syria, Egypt and Libya. In August 
1988 when I was chatting with him at his home, he told me that Egypt 
was North Korea's main counterpart for developing missiles jointly, 
Iran was also a counterpart for developing missiles jointly though the 
country was buying North Korean missiles, and Syria was buying North 
Korean missiles.
    Colonel Kim Young-hwan said that ``the export of missiles occupies 
the largest portion of North Korea's total export volume, and that if 
North Korea is unable to export missiles to the Middle East countries 
then its import of crude oil must be stopped.'' He also said that North 
Korea was earning about $1 billion a year when the export was smooth.
    In February 1991, when I was serving as a member of the North 
Korean Embassy in Congo, the Foreign Ministry office in Pyongyang sent 
us a telegram message which instructed us to take out a roll of North 
Korean film and other propaganda materials from Daeheng-ho, a North 
Korean freighter which sailed out from the North Korean port of Haeju 
and was bound for Syria, because the freighter was scheduled to stop at 
the Congolese port of Pointenoire. The message also instructed us to 
help the freighter refill fuel at the port. But around that time the 
world media began to report that the North Korean freighter seemed to 
be carrying missiles, and then Pyongyang ordered the freighter to 
return home.
    Later, the Foreign Ministry sent us a message saying that the 
freighter returned home for an inevitable reason, and the materials 
would be delivered later.
    North Korean Ambassador to Congo Ryu Kwan-jin, who was a close 
friend of Chang Song-taik (Kim Jong-il's brother-in-law) told me that 
he once heard Chang saying that North Korea had been experiencing 
difficulties in exporting surface-to-surface missiles to such countries 
as Syria, Libya and Iran due to U.S. reconnaissance satellites, and 
therefore, North Korea was transporting major parts of missiles by the 
planes.
    North Korea has been exporting not only its own missiles but also 
Chinese-made missiles. Kim Yang-gon, who served as a counselor in 
charge of trade at the North Korean Embassy in Zaire in April 1990, 
told me that North Korea had been importing Chinese silkworm missiles 
via railroads and then exporting it to Iran and Syria through 
searoutes, thus earning enormous amount of commission. Kim Jong-il was 
known to be satisfied with the trade.
    Exporting missiles is crucial to the North Korea's economy. Kim 
Jong-il regime is likely to continue missile production in order to 
attack ROK, Japan, and the United States in war time, and to get oil 
from Mideast countries as well. Therefore I would like to say that we 
have to work together to support ROK to improve its missile ability 
against North Korea's threat to keep peace in the Korean peninsula.

    Senator Cochran. Thank you, Mr. Kim, Colonel Choi, Mr. Ko. 
Thank you very much for your testimony.
    There is a phrase that is often used here in Washington to 
describe the impact of new information that is very important. 
Some say this is ``just like receiving a wake-up call.'' Well, 
to me, this is more than just a wake-up call. I think it is a 
call to general quarters. It ought to be considered a grave 
matter of national security and it requires a response that is 
appropriate to the level of the threat. We must, in my view, 
try to emphasize the importance of up-to-date intelligence 
information and how important it is to know what is going on, 
not only in trade from North Korea to other states in missile 
technology, other components of weapons of mass destruction and 
the weapons themselves, but we also need to take steps to be 
sure that we have the capability and the systems deployed that 
will protect U.S. forces and U.S. interests from missile attack 
and other weapons of mass destruction. That to me is the lesson 
and why I suggest that it is probably more appropriate to say 
this should be a call to general quarters and not just a wake-
up call.
    Let me ask a couple of questions before yielding to my good 
friend from Michigan. You mentioned, both of you, the No-Dong 
missile and the possible range that these missiles have. Do you 
know or could you tell us what quantities of these missiles 
have likely been constructed and will be deployed ultimately?
    Mr. Choi. I know for sure since the late 1970s North Korea 
has been involved in developing and producing missiles, but, 
unfortunately, I do not have exact numbers for quantity and 
amount of such missiles produced so far.
    Senator Cochran. Do you know how many of these missiles 
have been deployed, or if the No-Dong missiles have been 
actually deployed?
    Mr. Choi. Regarding the deployment of missiles, the 
following is what I know: Inside Pyongyang, the Sangwon-kun 
area, I know there is one brigade, one missile brigade that has 
been deployed. Inside Hamkyung Province, Hwadae-kun area, there 
is also another missile brigade that has been deployed.
    Senator Cochran. Mr. Ko, do you have responses to those 
questions? Do you have information that would enable you to 
answer those same questions about the deployment of the No-Dong 
missile and how many may have been constructed or are intended 
to be deployed?
    Mr. Ko. Since the 1970s, North Korea has been producing 
various kinds of surface-to-surface missiles, and the amount, 
according to what I know, has been more than the demand that is 
needed inside North Korea. Therefore, there have been surplus 
supplies that could have been diverted to exports. In terms of 
exact amount of these missiles, unfortunately, I do not have 
numbers.
    As Mr. Choi said, in Hamkyung Province, in Hwadae-kun area, 
there is a missile base which is targeting the American armed 
forces inside Japan. That I know for sure, but I do not have 
the information on numbers of missiles.
    Senator Cochran. The experience that we have had here in 
the development of missile programs is that there are extensive 
flight tests, undertaken before a system is deployed. Can you 
tell us whether or not there is such a testing practice in 
North Korea? Or is there a different approach to deployment? 
Are missiles sometimes deployed before extensive flight 
testing?
    Mr. Choi. Inside North Korea, first of all, the missile 
testing is an extreme secret, and the second point is it is 
very costly for them within the limited economic capability 
that they have. Therefore, as far as I know, they do not 
conduct extensive and multiple rounds of testings for those 
missiles.
    Also, if I could add, unlike the U.S. missiles, which 
require capability for surgical strikes, North Korean missiles 
are not designed for such surgical precision. What they are 
seeking is impact, and what they are targeting is a general 
region rather than specific facilities or so. Therefore, the 
precision of the missiles is not a question, a great matter of 
importance; therefore, that also is another reason why there is 
no extensive testing going on inside North Korea.
    And, also, another important point about missile testing is 
their purpose to use this as a bargaining chip during the 
negotiation with great powers such as the United States. So for 
that reason, they do not need multiple testings. One testing 
would be enough.
    Senator Cochran. Mr. Ko?
    Mr. Ko. My elder brother once told me that United States is 
very confident that they can detect everything through the 
reconnaissance satellites, but my brother mentioned that that 
is a great misunderstanding.
    For missile testings, because of the reconnaissance 
satellites, what the North Koreans do is they conduct these 
testings at night or cloudy days, and sometimes when no such 
option is available, they try to do simulated testing.
    Senator Cochran. Thank you. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    You made reference, Mr. Ko, to the shipment, a ship that 
was being redirected home from Congo, and that was because of 
the fear, as I understand it, that--was that because the 
satellites might have detected that that freighter carried 
missiles? Is that what the fear was? Or was that because of 
some other reporting?
    Mr. Ko. I could try to repeat what Mr. Ryu Kwan-jin, who 
was the Ambassador to Congo, said to us. He said the following: 
The Yankees were bothering us, and that is the reason the cargo 
ship had to return. And inside the cargo ship, there were 
missiles being exported to Syria.
    Senator Levin. According to your testimony, Mr. Ko, you 
said that North Korea was transporting parts of missiles 
instead of whole missiles because of the difficulty of 
exporting whole missiles and the fact that that would become 
known. And in your written testimony, you said that the parts 
of missiles were going to be transported aboard ships. Then 
when you testified orally, you used the word ``airplanes.'' I 
was confused as to which it was.
    Mr. Kim. To clarify, there was a mistake. There was a 
mistake that we detected before the hearing, and what he meant 
to say was airplanes. Because of the reconnaissance satellites, 
they had to use the airplanes.
    Senator Levin. So that the missiles then were going to be 
shipped in pieces from that point on aboard airplanes; is that 
correct?
    Mr. Ko. There are large parts of missiles that cannot be 
transported through airplanes. Those parts are exported through 
the ship with all the camouflage you can think of, and those 
parts that could be exported through--transported through the 
planes, they do so, as that had been mentioned. And, also, 
those parts that they carry on the ships, they use camouflage 
and try to use the nighttime.
    Senator Levin. Why is the shipment of missiles hidden by 
North Korea?
    Mr. Ko. North Korea believes that the U.S. has placed 
economic sanctions on the side of North Korea, and North Korea 
is under great pressure. Therefore, they would like to 
circumvent such restrictions. In order to do so, they had to 
hide these missiles exports because these exports are important 
means of earning dollars and oil from these countries that may 
not be very friendly to the United States.
    Senator Levin. He made reference to the MTCR. What was that 
reference?
    In his answer, when he was speaking in Korean, he made 
reference----
    Mr. Kim. Yes, I was asking what MTCR means, and they cannot 
provide a complete name for it, but it sounds like 
international norm that restricts missile productions.
    Senator Levin. I know what it means, but when he made 
reference to it in his answer, you did not in your translation 
make reference to it.
    Mr. Kim. Yes, that was my mistake. He mentioned briefly the 
international norm and pressure placed by the MTCR as well. 
That is another factor that is important.
    Senator Levin. Mr. Ko said that his brother--let me make 
sure. I believe his brother said that the North had purchased 
French Exocet missiles, and I am wondering when and from whom 
those missiles were purchased.
    Mr. Ko. Well, as I said, my brother told me that North 
Korea was importing Exocet missiles from French, but better 
source of this information is, in 1988, September, General Mr. 
Li Su-yon, belonging to the 15th Bureau of People's Armed 
Forces, told to me that North Korea has successfully imported 
those French Exocet missiles directly.
    Senator Levin. From France?
    Mr. Ko. I am sorry. He did not say directly. He did not 
identify the routes of imports. He just said North Korea 
succeeded in importing Exocet missiles from France.
    Senator Levin. ``From France,'' did he use the words?
    Mr. Ko. What it meant was French-made missiles, not from 
France.
    Senator Levin. Not necessarily from France.
    Mr. Ko. Not necessarily from France.
    Senator Levin. He made reference to a joint program between 
North Korea and Egypt to develop missiles, and I am wondering 
what he can tell us about that program and how long it lasted.
    Mr. Choi. In 1989, the Minister of People's Armed Forces, 
Choi Kwang, visited Egypt, and at that time I worked for the 
speech--transcript of the speech, draft of the speech for the 
combined command forces, and I worked for that script by 
myself.
    When I was working for that draft of speech for the joint 
chief of staff, I had to go to the External Economic 
Cooperation General Bureau of the Second External Economic 
Affairs Committee and had to put together all the related 
information regarding North Korea and Egypt joint project on 
missile development.
    According to the chief of the General Bureau, according to 
his words, in 1980, early 1980, based on the request from 
Egyptian President Mubarak and based on Kim Il-sung's approval, 
North Korea provided the process-related technology, production 
process-related technology to Egypt, and also sent a delegation 
of experts to Egypt.
    Through these joint efforts, it was announced in 1989 that 
a missile with a range of 400 kilometers was developed 
successfully. The information that I have mentioned so far were 
the ones that I saw in that collective material related to the 
information packet that I saw while I was working for the joint 
chief of staff speech.
    Senator Levin. Was that effort still ongoing when he 
defected in 1995?
    Mr. Choi. The Minister of the People's Armed Forces is not 
directly involved in such joint missile development efforts. 
Instead, the Second Economic Committee that belongs to the 
party directly manages such efforts, so, therefore, I am not 
completely sure about such details.
    I'd like to emphasize even the Minister of People's Armed 
Forces is not well informed of such dealings of missile exports 
and joint developments.
    Senator Levin. What can our two witnesses tell us about 
exports to Iran, specifically what types of missiles, how many 
missiles, when were the exports, what kind of technology or 
production equipment has been exported to Iran? Just what, 
when, what types, so forth, as much specifics as they can give 
us.
    Mr. Choi. As far as I know, the North Korean missile 
exports to Iran began during the Iran-Iraq War. It began during 
the Iran-Iraq War. Such missile exports was one of the key 
reasons why Iraq and North Korea discontinued their diplomatic 
relationship.
    The missiles that North Korea exported to Iran included 
various kinds of surface-to-surface missiles and surface-to-air 
missiles. Regarding the surface-to-surface missiles, I'm not 
sure what kind of missiles have been exported, for example, 
what kind of Scud missiles, what versions of them have been 
exported. But regarding the surface-to-air missiles, I know the 
mobile missiles, so-called Hwaseung Chong inside North Korea, 
which is similar to or the same as SAM-7 missiles and used to 
be produced by the Soviet Union, a large amount of those 
missiles have been exported to Iran, and I'm not--I do not have 
numbers for exact amount of such export.
    Those Hwaseung Chong missiles, the mobile surface-to-air 
missiles, was believed to be used when the U.S. helicopter was 
shot down in December of 1994.
    Of course, the Iranians were not as much interested in 
direct imports of the missiles, but they have been much more 
interested in learning this technology, and they have been 
quite consistent in demanding for such technology to be 
transferred from North Korea.
    As far as I know, since 1986, Iranian--top commander of 
Iranian Revolutionary Forces has visited North Korea three 
times since 1986, and one of the key reasons for their visit is 
for the transferring of such missile technology from North 
Korea to Iran.
    But as far as I know, at least until 1995, when I defected, 
North Korea did not respond or accept such demand of transfer 
of technology to Iran.
    Mr. Ko. In April 1988, secretary-level official named 
Kwosong-sun, working for the Ministry of Foreign Affairs, has 
told to me the following: The head of Iranian Revolutionary 
Armed Forces has visited North Korea repeatedly, and there is a 
problem because what they want is the technology and factories 
to produce these missiles, and what we want is selling those 
missiles to them. Therefore, their interests do not meet 
directly.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Levin.
    Colonel Choi, you mentioned both the No-Dong 1 and No-Dong 
2 missiles in your statement. Could you explain the differences 
between these two missiles and why North Korea desires to 
deploy them?
    Mr. Choi. I do not have details, technical details, about 
the difference between No-Dong 1 and No-Dong 2. All I know is, 
as it's well known, is the difference in the range. The reason 
for the deployment of these missiles, I believe, is to hit the 
supply bases and also naval bases located inside Japan, bases, 
I think United States base, as well as both Japanese and 
American supply and naval bases located inside Japan and 
Okinawa and Guam area.
    The North Koreans believe that when a war occurs, it will 
take about 20 to 30 days for the United States to transport the 
necessary forces to the ship all the way to the Korean 
Peninsula.
    Before the U.S. supplies reaches Korean Peninsula in 20 to 
30 days, North Korea aims to overtake the entire area of 
southern side of peninsula, and I believe the missiles, such 
missiles will serve a very useful purpose in doing so.
    In other words, those missiles will be used to prevent the 
U.S. supplies reaching the Korean Peninsula and, therefore, 
ensuring the complete victory for North Korea.
    Senator Cochran. Thank you.
    Mr. Ko, do you know what the intended targets of the No-
Dong will be? Can you confirm what Colonel Choi has said, or do 
you have any additional information that you could add to that?
    Mr. Ko. It is a well-known fact to me because I heard this 
through my brother, as I said before--and also through the 
other officials, my colleagues inside the Ministry of Foreign 
Affairs, and also friends in the Ministry of People's Armed 
Forces. It is a well-known fact that Kim Il-sung, when he 
established the National Defense University in 19--as early as 
1965, Kim Il-sung had said that North Korea should develop 
rockets and missiles to hit U.S. forces inside Japan. And 
regarding the U.S. forces inside South Korea, North Korea--it 
is a well-known fact that North Korea will use short-range 
missiles and other missiles and rockets in order to have 
casualties of somewhere between 10,000 to 20,000, and even more 
casualties in the side of U.S. forces in order to have anti-war 
sentiments to rise inside the United States and cause the 
withdrawal of U.S. forces in the time of war.
    Senator Cochran. Although my question related specifically 
to the No-Dong 1 and No-Dong 2 missiles, when you're talking 
about using missiles on targets in South Korea, are you 
referring to Scud missiles as well? And if so, will these 
targets that you mention be the same in the use of Scud 
missiles in South Korea?
    Mr. Ko. Yes, basically what you're saying is correct. No-
Dong 1 and No-Dong 2 are primarily designed to target U.S. 
forces inside Japan, Okinawa, and Sasebo area, and talking 
about the short-range missiles, yes, Scud missiles are the ones 
that will be used basically to hit the U.S. forces inside South 
Korea, and they will be also used in the multiple rocket 
launchers as well on the side.
    Senator Cochran. Colonel Choi, do you have any other 
information about how Scud missiles may be targeted in South 
Korea to ports or air bases, command and control facilities?
    Mr. Choi. I cannot recall exactly the year, but I believe 
it was either in 1987 or in 1988 there was a delegation from 
the Soviet Union Air Defense Command to North Korea, and I had 
to be acting as an interpreter, Russian language, for the 
Minister of People's Armed Forces, Ojin Uh, and that was the 
first time for me to be allowed into the North Korean Air 
Defense Command underground.
    I saw a map inside the air command, underground air 
command, a map that covers the entire area of Korean Peninsula, 
and for the southern part of the map, I could see the 
strategical targets for air strikes.
    By saying air strikes, I do not exclude missile strikes as 
well.
    There were three main targets of attack, and they were: No. 
1, Seoul and Inchon area; No. 2, Taejon area; and, No. 3, Ulsan 
area. Therefore, based on what I saw on the map, I believe the 
main targets in using Scud missiles will be also those three 
areas of Seoul-Inchon, Taejon, and Ulsan.
    Senator Cochran. Do you know how many Scud missiles and 
what types of Scud missiles North Korea possesses now?
    Mr. Choi. Again, I do not have numbers for the Scud 
missiles produced and specific information on the kinds of Scud 
missiles produced. But I could tell you that since 1978, inside 
People's Armed Forces command ranks, there has been a position 
for rocket and missile-related deputy commander position that 
has been in place since 1978.
    And, also, in 1993, North Korea opened a new university, a 
defense university, specifically devoted to the development of 
rockets and missiles, and this institute, as I said, was opened 
in 1993. So, therefore, I believe the amount that has been 
produced has to be significant.
    Senator Cochran. Mr. Ko, do you have information about the 
numbers and types of Scud missiles in North Korea at the 
present time?
    Mr. Ko. I recall a conversation that took place between 
myself and Kang Zok Ju, the Principal Deputy Minister of 
Foreign Affairs. I recall the date was September 8, 1988. I 
asked him during the conversation, ``Why are we exporting these 
missiles, including Scud missiles. Is it because we have enough 
supply here inside North Korea or is it because of some other 
reasons.'' And Mr. Kang Zok Ju replied to me, ``It is obvious 
that we can export missiles, including Scuds, overseas because 
we have enough supply inside North Korea.'' That is the 
information I can tell you, but unfortunately I do not have 
numbers.
    Senator Cochran. There is a statement--I think it is in 
Colonel Choi's prepared statement--about North Korea being in 
the final stages of the development for the 5,000-kilometer-
range Taepo-Dong missiles. When would they be deployed, if you 
know, and what would be their intended targets?
    Mr. Choi. Two things. Number one, regarding the missiles 
with 5,000-kilometer range, it has been generally discussed and 
mentioned to the general public of North Korea. That is all I 
know about the missiles of 5,000-kilometer range.
    But in 1991, Mr. Kim Kwang-jin, whom I mentioned--let me 
correct myself. In 1993, Kim Kwang-jin, whom I mentioned during 
my testimony, has specifically mentioned to me about 4,000-
kilometer missiles production and development, and he told me 
that we are expecting a completion of such development fairly 
soon. Mr. Kim Kwang-jin told me that during our visit through 
China as a North Korean military delegation to Beijing. Mr. Kim 
Kwang-jin, during the trip when he told me about these missiles 
with 4,000-kilometer range, did not mention specifically names 
such as Taepo-Dong or some other names.
    One point that I would like to reemphasize which was 
included in my testimony is he said at that time during our 
conversation--Mr. Kim Kwang-jin during our trip to China said 
it is almost no problem to produce longer-range missiles once 
we reached to the point where we could produce missiles with 
1,000-kilometer range. There is not much difference between 
missiles with 1,000-kilometer range and 5,000-kilometer range 
from his perspective. I do not know whether any missiles with 
4,000-kilometer range have been developed and actually 
deployed.
    Senator Cochran. Mr. Ko, do you have any information on 
that subject?
    Mr. Ko. Honestly speaking, I never heard about the name 
Taepo-Dong while I was inside North Korea, and still I do not 
understand where the name comes from. I imagine I first heard a 
name that was originated from the U.S. sources. As far as I 
know, naming missiles inside North Korea--they use names of 
planets, usually, like Hwasong-1, Jupiter; Moksong-1 and 2, 
like Mars, and things like that.
    Senator Cochran. Do you know anything about the intended 
targets for the long-range missiles?
    Mr. Kim. Mr. Chairman, are you asking the targets of the 
long-range missiles?
    Senator Cochran. Yes.
    Mr. Kim. OK.
    Mr. Ko. Regarding the targets for long-range missiles that 
North Korea is trying to develop or has already developed, as 
far as I know the primary target, number one target, is U.S. 
military facilities inside Japan. And the second target would 
be the facilities inside Guam, and as far as I know they are 
also seeking to strike areas such as Alaska.
    Mr. Choi. This has never been formally announced, but 
inside the People's Armed Forces in North Korea it is common 
knowledge that the ultimate goal for the development of North 
Korean missiles is to reach the mainland of the United States.
    In discussing such ultimate goal amongst the officers of 
the People's Armed Forces, there are saying once we reach that 
ultimate goal, we should use chemical and nuclear weapons and 
deliver a fatal blow to the United States, to the mainland of 
the United States. And it is a common thing to talk about such 
future amongst the general officers of the People's Armed 
Forces.
    Senator Cochran. Senator Levin.
    Senator Levin. Thank you.
    Relative to nuclear weapons, I guess, Mr. Ko, you were 
quoted as saying that you are not a hundred percent sure that 
North Korea has a nuclear bomb, but that they are trying to get 
a nuclear bomb. Do you think it is possible or likely that they 
have two or three weapons already, or don't you know?
    Mr. Ko. I think the question should go to Mr. Choi.
    Senator Levin. Well, I would like to ask both of them. Let 
me start with Mr. Ko. He was quoted as saying that he is not 
sure that North Korea has a nuclear bomb and I would like to 
know what he knows of his own knowledge.
    Mr. Ko. I think regarding the fact whether North Korea for 
sure has nuclear capability or not at this point will be only 
known to the supreme commander, Kim Jong-il. But during the 
time while I was working for the Foreign Ministry for 13 years, 
every year we had to deal with a so-called plan for national 
development and prosperity.
    In that, one of the items that comes up at the beginning is 
mentioning that all the embassies in all countries, their 
primary--one of the key missions is in seeking nuclear 
technology and I had to deal with that every year.
    Mr. Choi. I would like to add something. From 1979 until 
1982, I was a deputy military attache at the North Korean 
embassy in Czechoslovakia. While I was in Czechoslovakia during 
those years, I was getting orders to obtain the technology and 
equipment including some welding rods for welding the nuclear 
reactors, and also I was getting orders to obtain materials 
such as a sample of laser rod to use the laser-related weapons, 
which has little to do with the nuclear technology.
    I carried out those orders and I got decorated because I 
could send, fortunately, the following. I sent about 21 
different special welding rods that had to do with the nuclear 
reactor welding, and also I could send the documentation 
regarding the nuclear reactor welding technology. And, also, I 
was successful in obtaining the equipments relating to the 
laser technology.
    I got so-called gas laser rod, and also small--I think it 
is a conductor, circuit-related conductors. The French made 
such conductors, circuit conductors, that had to do with the 
laser technology and I was able to send those to North Korea, 
and as a result I was decorated. The circuit conductor I was 
referring to was the diodes.
    Senator Levin. Does Colonel Choi agree with Mr. Ko that 
only the supreme commander of the People's Army would know for 
sure whether or not North Korea has nuclear weapons?
    Mr. Choi. I had a lot of experience to travel with the top 
commanders of People's Army and had to work with them all the 
time. I never heard specifically how many nuclear warheads and 
in what kind of forms that North Korea--never heard that, 
whether North Korea has such capability in specific forms and 
numbers.
    At the time of death of Kim Il-sung, Kim Jong-il had said 
that if war occurs and if we are about to lose, we will destroy 
everything on earth, and this comment has been widely shared 
and announced throughout North Korea. That, I believe, is 
another indicator for the possibility that North Korea already 
has nuclear capability, but nobody has seen it or can confirm 
it for sure.
    Also, as you well know, North Korea has withdrawn from the 
Nuclear Proliferation Treaty. At that time, inside the People's 
Armed Forces, the officers, my colleagues were saying openly 
that the reason why North Korea joined the treaty at the 
beginning was to earn more time for the development of nuclear 
weapons. And since we have withdrawn, there is no reason to 
observe the treaty anymore, since we seem to have the 
capability and it is nonsense to remain under the obligations 
of the treaty. They are openly saying that.
    Senator Levin. Does he believe that the 1993 framework 
agreement stopped any further production?
    Mr. Choi. I absolutely do not believe that the framework's 
agreement had such impact on North Korean efforts for nuclear 
development at all. As far as I understand, the inspection team 
visited North Korea based on the framework agreement. I do not 
think they had a chance to inspect underground facilities, and 
I believe they only inspected the above-the-ground-level 
facilities and I believe all the critical and important 
facilities are underground. Therefore, they didn't really see 
anything from my perspective. I believe those underground 
nuclear facilities will never be open to outsiders under any 
circumstances.
    Senator Levin. And South Korea knows where they are?
    Mr. Choi. I don't know how much the South Korean side knows 
about this, but when I was inside North Korea I heard that such 
facilities were generally located around the Youngbyon area. 
One of the evidence to support such speculation, believing that 
most of the facilities are locating in the Youngbyon area, is I 
know for a fact in 1993 the People's Armed Forces--the guarding 
around that area was upgraded from battalion level to brigade 
level in 1993. I believe such a decision was made based on the 
possibility of spy activities, to prevent such activities.
    Senator Levin. And where precisely was that?
    Mr. Kim. That is the Youngbyon area where the lightwater--
--
    Senator Levin. No, but where near Youngbyon? Where 
precisely was that underground facility that had increased 
protection?
    Mr. Choi. The district or area inside the Youngbyon area is 
called Bun-gang area and that's a special district where no one 
from outside can enter, and my brother-in-law used to work as a 
part of police force guarding that Bun-gang area inside 
Youngbyon. My brother-in-law was in charge of inspecting the 
people going and coming out of the special area, inspecting 
what kind of documents they are carrying, whether they are 
carrying any secret documents.
    Senator Levin. Is he still there in North Korea.
    Mr. Choi. Since I mentioned such factors relating to my 
brother-in-law at the time when I had the press conference 
after my defection, I do not believe he is there anymore. 
According to what I heard from my brother-in-law at that time 
when I was in North Korea, in that Bun-gang area they were 
developing and producing laser technology, as well as the 
nuclear-related technology and products.
    Senator Levin. Just one final question. Colonel Choi, you 
mentioned that there are two brigades of missiles that have 
been deployed. Can you tell us what types of missiles have been 
deployed with those two brigades and what the ranges of those 
missiles are, if you know?
    Mr. Choi. Regarding the missile brigade that is located in 
the Sangwan area, the brigade commander was a good friend of 
mine from same school. He went to the rocket institute inside 
the Soviet Union. He graduated from there in 1986 and he became 
the commander, brigade commander, of that Sangwan missile base. 
Later on, he was executed with the accusation being a Soviet 
spy, a spy from the Soviet Union.
    Unfortunately, I do not, however, have specific numbers or 
information regarding what kind of missiles that he had inside 
his missile brigade.
    Senator Levin. He mentioned two brigades. Does he know 
anything about the other brigade?
    Mr. Choi. Unfortunately, I do not have any specific 
information about the other brigade.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Levin.
    Let me ask you a few questions about the export policies 
and programs of North Korea. Could you tell us the number of 
countries and the identity of these countries who have 
purchased Scud-type missiles from North Korea?
    Mr. Choi. All I know is that North Korea has been exporting 
those missiles, including Scud missiles, to Iran and Syria, 
mainly. But, unfortunately, I do not have specific information.
    Senator Cochran. Mr. Ko?
    Mr. Ko. I know Libya also has imported some quantity, 
limited quantity of Scud missiles, but I know the main 
importers of North Korean Scud missiles have been Iran and 
Syria.
    Senator Cochran. Do you have any information about how many 
missiles have been purchased by each country?
    Mr. Choi. No.
    Mr. Ko. No.
    Senator Cochran. There were some recent news reports that 
Iran is building new intermediate-range missiles which are 
based upon the No-Dong design. Do you know if Iran has 
purchased the No-Dong missile from North Korea or if North 
Korea is assisting Iran in developing intermediate-range 
missiles?
    Mr. Choi. Since 1986, the delegation from the Iranian 
revolutionary forces have visited North Korea three times and 
they have been asking for--it has been well-known among the 
officials inside the People's Armed Forces in North Korea that 
they have been asking for missile technology. The consensus 
inside the North Korean People's Armed Forces was that it was 
too early and premature to hand over such production technology 
and factories.
    But as I mentioned earlier, the Second Economic Committee 
inside the party is responsible for such operation and I do not 
know how they responded to this demand. Until the time I was 
there at least, I don't think North Korea was responding 
favorably in terms of transferring such development technology.
    Senator Cochran. Mr. Ko?
    Mr. Ko. I do not have much information about that.
    Senator Cochran. There was a report that Libya had 
contacted North Korea about a 1,000-kilometer-range missile. Do 
you know if North Korea has cooperated with Libya on the 
development or the sale of a 1,000-kilometer missile, and if 
so, what is the status of that program?
    Mr. Choi. Unfortunately, we do not have any information.
    Senator Cochran. Mr. Ko?
    Mr. Ko. No.
    Senator Cochran. How does North Korea transport its 
missiles to Iran, Syria and Libya? I know you have had some 
conversation with Senator Levin about the use of airplanes or 
ships. What is the current practice, if you know, how these 
missiles are transported?
    Mr. Ko. What I mentioned to Senator Levin was what I heard 
before my defection, and unfortunately after my defection, I 
haven't had the chance to deal with such information at all.
    Mr. Choi. While I was working for the North Korean People's 
Armed Forces, I knew as a fact that there is an airport called 
Sun-an Airport, and cargo planes come in for the purpose of 
transporting those exported items of weapons overseas. And when 
they come in, they usually use students from the nearby Kangun 
Military Academy at night so that they will avoid detection 
from the U.S. side.
    And they use those cargo planes extensively, and as I 
mentioned before, the missiles--the large parts, I know for a 
fact, were transported through ships and some several key items 
that could fit into the cargo planes were transported through 
those cargo planes.
    Senator Cochran. Other than receiving money for the sale of 
missiles and parts and components, do you know of any other 
things of value that North Korea has received from those whom 
it has sold technology and components?
    Mr. Choi. In 1994, North Korean Air Force Commander Cho 
Meong Loc visited Iran and they signed an agreement. According 
to this agreement--based on this agreement, North Korea 
promised to supply the Soviet--the airplane parts that have to 
do with the Soviet-made airplanes--North Korea will provide 
those parts, airplane parts, and in return Iran promised to 
provide the fuel for airplanes.
    I recall--probably, it was late 1993, North Korea sent 28-
member technical assistance team to Libya and they were 
supposed to help Libya in repairing the Mig-25, 23, airplanes, 
and also other artillery equipments produced by the former 
Soviet Union. And I think in return for this, that delegation 
dispatchment to Libya, North Korea received oil from Libya, and 
I think such arrangement is still going on.
    Senator Cochran. Mr. Ko, you mentioned when you were posted 
in the Congo, one of the requirements of your job was to seek 
and try to obtain nuclear weapons, component parts, or 
technology, and the like. Do you recall any trades like that 
being undertaken between North Korea and other countries where 
North Korea would sell one kind of military technology in 
exchange for nuclear technology or any other kind of military 
technology?
    Mr. Ko. Unfortunately, I did not have a chance to hear 
other stories.
    Senator Cochran. OK. Thank you.
    In the case of chemical and biological weapons programs, I 
think you mentioned, Colonel Choi, that North Korea produces 
toxic gas. What kinds of chemical agents does North Korea 
possess, and how would they be used?
    Mr. Kim. Mr. Chairman, there could be a difficulty in 
translating those names, but I will do my best based on what I 
hear.
    Senator Cochran. Thank you.
    Mr. Kim. Some of them are Korean. Some of them are based on 
German and different languages, but Mr. Choi has mentioned 
three different kinds of gases. Number one, gases that act on 
the nerve system--I will give you names, chadin, choman, tifun, 
and vee gases--that acts on nerve system.
    And, also, there are gases that act on the skin, blistering 
gases, eprid and luisid, or such names that were mentioned by 
Mr. Choi.
    OK. Regarding the skin destruction, those are not 
necessarily gases. Any material that if it touches the skin, it 
could destroy the skin.
    And, also, third kinds of toxic material act on human blood 
system, and the names he gave me was chungsun, yomashun--those 
are Korean names--and also several other names that acts on the 
blocking and destroying blood circulation system of human 
being.
    Senator Cochran. How are these delivered?
    Mr. Kim. Those will be delivered through missiles, rockets, 
and also ulterior shots.
    Senator Cochran. Is it a part of the North Korean military 
doctrine to use these chemical agents in case of hostile action 
with South Korea or to deliver them as far as Japan or other 
places? Where will they be delivered?
    Mr. Kim. North Korean military personnel are trained under 
this doctrine, or they are trained with--that they are told 
repeatedly that there are several nuclear--so-called nuclear 
backpacks, 57 of them--he happened to give me the name--nuclear 
backpacks and other nuclear equipments inside South Korea, 
provide United States, and they are also told there are several 
thousand tons of toxic gases, also provided by the United 
State, being stored inside South Korea.
    They say, therefore, it is natural for North Korea to 
respond to the enemy that already has nuclear and these 
biochemical capabilities in kind, use the nuclear and 
biochemical weapons on the side of North Korea. It is natural 
for them.
    And, also, the targets not only include the U.S. forces and 
the South Korean forces inside South Korea, but, also, they are 
targeting U.S. forces and also Japanese forces in Japan, 
Okinawa, and other parts around the area.
    Senator Cochran. Do you know whether there is any specific 
doctrine about the use of a first strike, initiating hostile 
action with the use of chemical or biological weapons?
    Mr. Choi. I have not seen or hear such documentation on 
using biochemical weapons in the first strike.
    Senator Cochran. What types of missiles, if you know, would 
be used to carry these weapons? What kind of warheads?
    Mr. Kim. What kind of missiles?
    Senator Cochran. Missiles that would carry warheads with 
weapons of mass destruction.
    Mr. Choi. The kinds of missiles that they are developing 
and producing will be used for delivery of such biochemical 
weapons and also weapons of mass destruction such as nuclear 
warheads.
    I believe all they have to do is just change those 
warheads. For specific purpose and for a specific range, they 
just have to choose a different kind of missiles to reach the 
target.
    Senator Cochran. Mr. Ko, you mentioned in response to a 
question asked by Senator Levin that there was a joint 
development program involving North Korea and Egypt in missile 
development. Is this a current ongoing program, or has that 
been terminated?
    Mr. Choi. As I mentioned, until the time of 1989, when I 
was working for that speech for the commander for the Army 
forces, I knew for sure such cooperation was going on between 
North Korea and Egypt.
    After that, I do not have such information, but I would 
suspect, based on my knowledge and general relation between 
Egypt and North Korea--I would suspect that such cooperation 
for missile and other developments or effort is still going on.
    To add another information, in 1989, a one-star general 
from the North Korean Army was working inside Egypt for that 
specific rocket, the missile co-development between Egypt and 
North Korea.
    The person who was sent to Egypt at that time, 1989, he got 
that one-star general--military two-star general, military 
rank, even though he was basically a civilian. It was used. 
Such military rank was used to serve that specific purpose.
    And there was also a colonel from the military residing 
inside Egypt. The importance of mission, he got--I believe he 
got that two-star military rank, and there was a continuous 
conflict between that colonel and the general, and it was quite 
a well-known fact.
    Senator Cochran. I think you mentioned that there was an 
exchange agreement between North Korea and Iran with respect to 
oil and fuel for planes and military use in exchange for 
missiles and missile technology. Have there been any other 
examples of mutual assistance for military purposes with other 
countries? China, for example, has there been a relationship of 
that kind of China, or the Soviet Union or Russia?
    Mr. Kim. Mr. Chairman, could I request about a 30-second 
break for myself and I will be right back?
    Senator Cochran. Yes. Let's make that 5 minutes. How about 
that?
    Mr. Kim. OK.
    Senator Cochran. A 5-minute break. Let's have a 5-minute 
break.
    [Recess.]
    Senator Cochran. If we are all set, we can return to order 
and commence our hearing again.
    Let me ask both of you, in connection with this mutual 
assistance relationship that exists between North Korea and 
some countries, has there been any success or even efforts made 
by North Korea to recruit missile or weapons experts from 
Russia or other states from the old Soviet Union to help in 
missile and weapons development in North Korea?
    Mr. Choi. I heard after the collapse of the Soviet Union, 
the collapse of the Soviet Union around the time of 1991, there 
were nuclear experts from Russia, two of them, who were 
naturalized in terms of getting North Korean citizenship, and I 
was told that they were residing in a house around the Taedong 
area inside Pyongyang, and they were using a house that used to 
be occupied by a well-known actress and a movie director who 
were kidnapped by North Korea.
    Senator Cochran. Mr. Ko?
    Mr. Ko. What I would like to say to you right now may have 
little to do with what you ask, but it is just that I would 
like to tell you for your information.
    In 1971, I was hospitalized in a hospital that was 
specifically designed for high-government officials, and there 
was a very well-known scientist, Dr. Li Seung-Gee, who also was 
hospitalized in that hospital at the same time. And he was 
boasting about the fact that he got a title, a hero title from 
Kim Il sung for developing chemical weapons--developing 
chemical weapons, and in return, as a reward, along with the 
hero title, he changed all his teeth covering with 18K gold.
    Senator Cochran. Well, let me ask you if you know whether 
North Korea has imported specialized materials that it needs 
for producing missiles and where those materials have come 
from.
    Mr. Ko. I heard from the people who are working in the 
Japan section of the Ministry of Foreign Affairs that the 
electronic chips that were used for these missiles were mostly 
imported through the Chosen Soren which is an organization of 
Japanese Koreans inside Japan. So they were imported from Japan 
from Chosen Soren.
    Mr. Kim. Mr. Choi does not have any information on that.
    Senator Cochran. There was a comment you made about getting 
an Exocet missile from France. How was that done, and what was 
the purpose for getting that missile?
    Mr. Ko. I do not have information on the process of 
importing Exocet missiles. I only heard it from my colleague. 
Exocet missiles, I was told it was smuggled from Afghanistan 
through Moscow and then imported to--transported to North 
Korea.
    Senator Cochran. You mentioned that North Korea had been 
used by China and paid a commission to sell certain cruise 
missiles to Iran and Syria. Do you know if China has also 
exported ballistic missiles or technology to other countries 
through North Korea?
    Mr. Ko. I heard at that time with regard to those 
missiles--when I heard that North Korea was acting as an 
intermediary for those silkworm missiles, I asked my superior 
why do we not do the reverse engineering and develop a missile, 
sort of like a silkworm, and I was told by my superior that we 
already have a missile that is better than silkworm, so there 
is no reason to. All we have to do is just--through those 
intermediary roles, but I do not have any other information 
about North Korea acting as intermediary for other Chinese 
arms.
    Senator Cochran. How was North Korea able to reverse-
engineer missiles like the Scud missile while other countries 
like Libya and Egypt seem to have been unable to do so? Did 
North Korea have special assistance in the engineering to 
accomplish this?
    Mr. Choi. As far as I know, there was a significant number 
of students, military officials as students sent to North Korea 
to the Soviet Union to study in these rocket and missile 
institutes inside the Soviet Union. That was during the 1960's, 
and the number was significant.
    Therefore, considering the exchange programs and 
activities, I would presume such support from Soviet Union was, 
indeed, significant.
    Senator Cochran. To what extent are there present in North 
Korea or in the recent past have there been present in North 
Korea, technicians, engineers, scientists from China or Russia 
involved in a military defense institute or academies or 
universities that are involved in military weapons development 
and the like?
    Mr. Choi. I do not have any knowledge.
    Mr. Kim. Mr. Ko said he did not hear anything about Chinese 
engineers working for rocket development or missile development 
inside North Korea. He did not hear that.
    Senator Cochran. Or chemical and biological weapons.
    You mentioned the one person who was in the hospital with 
you who got a new set of gold teeth out of the deal. Are there 
any other examples like that, that you know of, or any people 
working in that area now from other countries?
    Mr. Kim. The person who got the gold teeth was a famous 
North Korean scientist, but I will ask.
    Senator Cochran. Oh, I see. I thought he was from Russia.
    Mr. Kim. His name was Dr. Li.
    Mr. Choi. I never heard of any foreigners working inside 
North Korea.
    Mr. Kim. Mr. Ko said that I believe probably North Koreans 
are better in developing such technology by themselves other 
than learning from others.
    Senator Cochran. Thank you.
    Has North Korea used the U.S. Global Positioning System, 
called GPS, to improve missile accuracy? Do you know?
    Mr. Choi. I have not heard anything having to do with GPS 
system, but while I was inside North Korea, I was told that 
there is a Space Research Institute inside the People's Armed 
Forces that study stars, and they were going to use their 
knowledge of a constellation to control and target those 
missiles when they launch those missiles.
    Senator Cochran. Do you know where this technology was 
coming from? Was it coming from China, or Russian sources?
    Mr. Choi. I believe there was close cooperation between the 
research institute and the Soviet Union.
    Before the collapse of the Soviet Union, the research 
institute was regularly receiving the satellite images of the 
Korean Peninsula from the Soviet Union through the Soviet 
satellites, but, however, after its collapse, I am not sure 
where North Korea would be getting such source.
    This kind of astronomical- or aerospace-related technology, 
North Korea also worked together with Romania.
    Senator Cochran. We talked about the military doctrine with 
respect to the use of chemical agents in warfare. What is the 
doctrine with respect to the use of nuclear weapons? You 
mentioned that in your opinion, North Korea had the capacity to 
develop--or has nuclear weapons now. I think you said that, 
Colonel Choi. What is the doctrine for the use of nuclear 
weapons?
    Mr. Choi. I have not seen any written military doctrine on 
this use of nuclear weapons, but it is general knowledge and 
consensus inside the People's Armed Forces that it is natural 
for North Korea to use nuclear weapons because the opponent, 
the enemy, meaning the United States, has the nuclear 
capability.
    North Korea believes in the time of attack, the United 
States will use a small nuclear weapon to destroy the North 
Korean brigade, and such small-sized nuclear weapon will be 
aimed to destroy about 30 to 40 percent of the one-brigade-unit 
forces of North Korea, and based on this belief, they have 
plans to resupply these forces that will be destroyed under the 
U.S. nuclear attacks on these brigade units.
    Senator Cochran. Would there be a plan to retaliate by 
using a nuclear weapon if the North Korean forces are attacked 
with nuclear weapons?
    Mr. Choi. Absolutely, yes. In that case, North Korea will 
respond to nuclear arms.
    Senator Cochran. Are there any specific plans that you know 
about for using nuclear weapons as a preemptive measure or to 
surprise and to annihilate opposition forces?
    Mr. Choi. Unfortunately, since I had little to do with 
nuclear strategy, unfortunately, I am not in the position to 
tell you anything. I do not have any knowledge about that.
    Senator Cochran. I think you or Mr. Ko may have mentioned 
that in the likelihood of a destruction of the regime in North 
Korea that they would be prepared to destroy everything, and 
that that is one reason why you think that there is a nuclear 
weapons capability in North Korea now. Are there any other 
reasons why you think that we should take the threat to use 
nuclear weapons seriously?
    Mr. Choi. When I was mentioning Kim Jong Il's words to his 
father, Kim Il Sung, I would like to make it clear that he did 
not specifically mention nuclear weapons, but everybody in 
North Korea, most people took his words as an indication that 
North Korea has a capability to ``destroy''--the words in 
quotes.
    Second is I would suppose that another important reason for 
North Korea seeking or in using nuclear capability is political 
purpose. It is a power and prestige question, and since all the 
powers surrounding the Korean Peninsula do have nuclear 
capability, China, Russia, and the United States, it seems to 
be critical for North Korea to have such capability in order to 
enhance its power position as well.
    Senator Cochran. Do you think the potential threat to use 
nuclear weapons against North Korea from the U.S. or anyone 
else would have the effect of deterring or keeping North Korea 
from using nuclear weapons in the first place?
    Mr. Choi. I cannot tell you about the detailed thinking 
about this deterrence question, North Korea thinking, they 
cannot use nuclear weapons because others have it. I am not 
sure what they are thinking, but I could presume that North 
Korea, since basically the Korean Peninsula itself is a 
homeland, it is reluctant in using nuclear capability in a not-
so-careful manner. Therefore,I think they are more inclined in 
using the nuclear capability as a last resort.
    Officially, inside North Korea, it is being often said that 
Japan would not have lost the war to the United States if it 
had the nuclear capability at the end of World War II.
    Senator Cochran. Senator Levin asked you some questions 
about the negotiations that are underway and the framework 
agreement that involves North and South Korea, as well as the 
U.S. Do you think it is likely that negotiations and agreements 
of that kind will actually make any changes in the North Korean 
willingness to develop and continue to develop and possibly to 
use weapons of mass destruction?
    Mr. Ko. I do not believe the talks between the United 
States and North Korea will make any difference. As long as Kim 
Jong Il is in power, he is a person who likes to think about 
war all the time. As long as he is in power, I do not think 
that just the talks will make any difference in terms of 
developing and producing weapons of mass destruction.
    The only way to control or limit North Korea in doing so 
would be strengthening the force level of the United States, 
the forces inside South Korea, and also strengthening the South 
Korean missile capabilities as well as a deterrence measure.
    Mr. Choi. I firmly believe that North Korea will not make 
any change in their development efforts of weapons of mass 
destruction only because there is a pressure from the United 
States. Such kind of pressure from the United States will not 
work for this purpose.
    They will be using this question of developing and 
producing weapons of mass destruction in relation with the 
withdrawal of U.S. forces from the Korean Peninsula, meaning 
they will be using these issues as a bargaining chip.
    They may propose that they may think about giving up such 
developing and producing efforts of weapons of mass destruction 
if the U.S. agrees to withdraw U.S. forces from South Korea, 
but I do like to emphasize that North Korea is interested in 
talks with the United States. The purpose doing so is 
changing--through the talks, they want to change the current 
armistice to a peace treaty and would like to induce the 
withdrawal of 40,000 U.S. forces from South Korea.
    And as you may already know, on the 17th of this month, 
there was a kidnapping instance of civilians in the DMZ zone, a 
kidnapping by the North Korean armed forces. I believe such 
effort is an effort to have more chances to talk to the United 
States directly so that they can pursue the purpose of changing 
armistice--this is to a peace treaty, and then inducing a 
withdrawal of U.S. forces.
    North Koreans, for sure, will continue to use these 
questions of weapons of mass destruction and other related 
issues as a bargaining chip to seek their ultimate goal, which 
is seeing a withdrawal of 40,000 U.S. military forces from 
South Korea.
    Senator Cochran. Let me ask you this. There is obviously a 
serious economic problem in North Korea. I was a member of a 
delegation led by Senator Stevens, 6 months ago, which went to 
North Korea, and we had talks with a number of members of the 
government while we were there, and we were able to observe 
some of the difficulties caused by the food shortages. We were 
only in Pyongyang. We were not able to spend time out in the 
countryside, but my question is, if the economic problems 
continue to become worse and there is an imminent collapse in 
the country being faced by this regime, do you think there is a 
possibility or a likelihood that they might lash out with the 
military to provoke a war or confrontation, a military action, 
as an excuse for mobilizing and beginning a war with South 
Korea as a matter of just sheer desperation? Is that something 
that is possible or likely in your judgment?
    Mr. Ko. First of all, I do not believe the food situation 
in North Korea is as serious as what we used to observe in 
Somalia.
    I believe the process of collapse, the long-term collapse 
has already started inside North Korea. The collapse of the 
system has already started, but I do not believe there will be 
a complete collapse in the short run because of their strong 
political control of the people. So we will not see an 
authorizing of any kind in the short run.
    And I believe, as you mentioned, it is quite likely that 
they will resort to a war as a way to get out of desperation 
towards the end when they are approaching the complete 
collapse. It is more likely because when Kim Jung Il is looking 
at the situation, the political situation in South Korea, he 
observes that several former presidents go to jail after the 
completion of their term. So he will also believe that if his 
system collapses, he will not be left alone and safe. 
Therefore, there is also another reason for him to try a war at 
the end.
    Mr. Choi. I believe there are three likely scenarios of 
North Korea starting a war. The most likely one is following 
the withdraw of U.S. troops from South Korea. The second 
possibility is if there is a large-scale war, either regional 
or worldwide-scale war, sort of like the Gulf War, that could 
divert both the attention and capability of the U.S. military 
forces away from the Korean Peninsula, I think it is likely. 
The third scenario is if South Korea experiences political 
turmoil or chaos that resembles to the level of the April 19th 
movement during the 1960's that changed regime and also the May 
18th movement that also changed the regime around the 1980's, 
when such political turmoil occurs inside South Korea, I think 
it is likely that North Korea will contemplate on the 
possibility of starting a war.
    As long as the 40,000 U.S. military forces stays inside 
South Korea, North Korea will be extremely careful and will be 
very calculating before thinking about the possibility of 
starting a war, but, of course, as the Chairman mentioned, 
towards the end, if Kim Jung Il sees no other choice, then he 
will just start--or he is likely to start a war under any 
circumstances.
    Some people believe here in the United States and in Korea 
that North Korea's complete collapse could come in 2 or 3 
years. I do not agree with such prediction. I do not think such 
short-term collapse is likely. The collapse will come in the 
long term, and, also, I cannot set aside the possibility of 
North Korea being revised as well, based on my knowledge about 
the North Korean system.
    Senator Cochran. Thank you very much.
    I have no further questions, but I do wish to congratulate 
you and express our deep gratitude for your assistance in our 
effort to understand better the threats that exist around the 
world against the U.S. interest. This is a very interesting 
hearing, a very troubling hearing, but one that we can learn 
from, and I hope that we can use the information to help 
contribute to a new era of peace and stability in the world.
    Our next hearing is going to be on Monday, October 27, at 2 
o'clock p.m. At that time, we will examine the safety and the 
reliability of the U.S. nuclear deterrent. Until then, the 
Committee stands in recess.
    [Whereupon, at 12:57 p.m., the Committee was adjourned, to 
reconvene at 2 p.m., Monday, October 27, 1997.]
                            A P P E N D I X

                              ----------                              


  RESPONSES TO QUESTIONS FROM MR. ROBERT EINHORN SUBMITTED BY SENATOR 
                                COCHRAN
    Question 1. How many and what types of Scud missiles does North 
Korea possess?

          Answer. North Korea produces two variants of the SCUD 
        missile, the Scud B, with a maximum range of 300 kilometers, 
        and Scud C, with a maximum range of 500 kilometers.
          The DPRK has a production capacity of four to eight Scuds 
        monthly, both for export and for its own armed forces, and has 
        hundreds of Scuds in its current arsenal.

    Question 2. Does North Korea have Scuds armed with chemical or 
biological weapons? If so, in what numbers?

          Answer. North Korea has the ability to produce large 
        quantities of chemical agents. Since 1990, the DPRK has 
        expanded and intensified its chemical warfare effort. The DPRK 
        is believed to have a sizable stockpile of chemical weapons.
          North Korea has pursued research and development related to 
        biological warfare for the past 30 years. Its resources, 
        including a biotechnical infrastructure, are sufficient to 
        support production of limited quantities of infectious 
        biological warfare agents, toxins, and possibly crude 
        biological weapons.
          North Korea could use a variety of means to deliver chemical 
        or biological agents, including domestically produced 
        artillery, multiple rocket launchers, mortars, aerial bombs, 
        and ballistic missiles.

    Question 3. What is the current status of the No Dong? Has it been 
deployed? If so, in what quantities?

          Answer. North Korea has developed the No Dong medium-range 
        ballistic missile (MRBM), based on Scud technology, for its own 
        use, as well as for export.
          Flight tested in May 1993, the No Dong has a range between 
        1,000 and 1,300 km, and will be able to strike nearly all of 
        Japan when it is deployed. It can be outfitted with 
        conventional or chemical warheads.
          Currently, the reliability and accuracy of the No Dong are in 
        question, due to its severely limited flight test program.

    Question 4. What is the current status of the Taepo-Dong program?

          Answer. North Korea continues to devote resources to the 
        development of longer range missiles, known as the Taepo Dong 1 
        and 2. The Taepo Dong 1 is assessed to have a range capable of 
        striking targets in Japan and China, while the Taepo Dong 2 
        could possibly reach as far as Alaska.
          Both missiles are in the early stages of development. Both 
        systems appear to represent a logical evolution of the 
        experience gained through work on the Scud and No Dong systems. 
        Both are two-stage systems and are likely to employ separating 
        warheads.
          North Korea has little experience flight testing its missiles 
        and has no experience testing multistage ballistic missiles or 
        other related technologies. This lack of test experience could 
        complicate North Korea's ability to evaluate, improve, or 
        repair flaws in its missile designs.
          Preparations for a missile test-launch in October 1996 raised 
        international concern over the development of North Korean 
        ballistic missiles. The test--associated with either the No 
        Dong or possibly the initial flight test of a multi-stage 
        missile--was apparently cancel led because of international 
        pressure or technical problems. Taepo Dong 1 flight testing 
        could begin at any time.

    Question 5. To what countries has North Korea sold Scuds? In what 
quantities? How important to the North Korean economy is the foreign 
exchange earned from these transactions?

          Answer. See next response.

    Question 6. To what countries has North Korea provided missile 
production capabilities or assistance and to what extent?

          Answer. Despite economic and political problems, Pyongyang 
        continues to attach a high priority to the development and sale 
        of ballistic missiles, equipment and related technology.
          The DPRK uses sales of missile equipment and technologies to 
        generate hard currency revenues for its depressed economy and 
        as a means of supporting continued research and development for 
        its missile programs.
          In the past 10 years, North Korea has received more than one 
        billion dollars worth of bartered goods and services and hard 
        currency for SCUD missiles and production technology.
          North Korea has provided material and know-how for domestic 
        Scud missile production programs, including in Libya, Syria and 
        Iran.

    Question 7. Has there been any cooperation between North Korea and 
foreign countries regarding chemical or biological weapons?

          Answer. Although North Korea is an active supplier of 
        missiles and related production technology, it has not yet 
        become a supplier of nuclear, chemical or biological warfare-
        related technology.

    Question 8. What is the relationship between the No-Dong and Shahab 
3 and 4 missiles? Is there evidence that the No Dong is being exported 
to Iran or that North Korea is assisting Iran with its Shahab 3 and 4 
programs?

          Answer. Iran has made significant progress in the last few 
        years toward its goal of becoming self-sufficient in ballistic 
        missile production. This has been accomplished with 
        considerable equipment and technical help from North Korea. 
        Iran can be expected to continue its efforts to acquire 
        equipment and technologies from North Korea, as well as China 
        and Russia.
          Further details on these missile programs cannot be provided 
        in an unclassified paper.

    Question 9. Is North Korea assisting any other countries with a No 
Dong like capability?

          We are not able to respond to this question at the 
        unclassified level.

    Question 10. It is evident that North Korea has exported virtually 
every missile it has produced, from the Scud B on up to the No Dong. Is 
there any reason to believe it would not also export the longer-range 
Taepo Dong missiles now under development?

          Answer. We are not in a position to speculate upon North 
        Korea's future behavior.

    Question 11. To what extent has North Korea received foreign 
assistance for its missile development programs? Has there been 
cooperation with China, the Soviet Union or Russia, Egypt or Iran?

          Answer. This question was answered in detail in the 
        classified House Conference Report 104-863, the semi-annual 
        report to Congress, pursuant to Section 585 (d) of the Omnibus 
        Appropriations for 199.

    Question 12. According to press reports, there have been two rounds 
of missile talks with the North Koreans, with the latest round 
cancelled by them in August of this year after one of their diplomats 
defected. Please describe the goals and status for the missile talks 
and what has been accomplished to date.

          Answer. We have been working for years to impede the DPRK's 
        indigenous deployments and missile-related exports through 
        export controls, sanctions, seizures of equipment shipments, 
        and political pressure.
          The 1994 U.S.-DPRK Agreed Framework provided an opportunity 
        to augment these measures with direct U.S.-DPRK missile talks. 
        In 1996 we initiated a bilateral missile dialogue with the DPRK 
        aimed at bringing an end to DPRK missile exports and slowing 
        indigenous missile development.
          The first round of talks in Berlin, in April 1996, provided a 
        good beginning. The second round took place in New York in June 
        1997. Despite the long hiatus, these talks were also 
        productive. We had serious and business-like discussions, and 
        the North Koreans appeared willing to engage in a constructive 
        dialogue on the issues. No agreements were expected at this 
        stage, and none were reached. This will be an incremental 
        process. We believe North Korea may be prepared to restrain its 
        missile exports, but we must keep pressing the DPRK to limit 
        its indigenous missile deployments and its chemical weapons.
          The DPRK agreed to a third round of missile talks in August, 
        but cancelled it when North Korea's Ambassador to Egypt 
        defected to the U.S. We continue to press for another round.

    Question 13. News reports in June of 1996 stated that, according to 
Winston Lord, the United States had offered to lift economic sanctions 
on North Korea if it agreed to halt its missile export program. Is this 
the essence of the U.S. approach to the problem of North Korean 
proliferation? What do you believe is the likelihood of success of such 
an approach?

          Answer. We cannot discuss the details of our negotiations 
        with the North Koreans at the unclassified level.
          It is too early to speculate on the outcome of these talks. 
        This will be an incremental process.

    Question 14. It is apparent that North Korea's missile program is 
extensive, serves important military and political purposes, and 
provides a crucial source of income for North Korea. How then does the 
United States convince North Korea to give this program up?

          Answer. We cannot speculate about future North Korean 
        behavior, and it is too early to speculate on the outcome of 
        U.S.-DRPK Missile Talks.

    Question 15. In a proliferation report, the Monterey Institute 
stated that the Missile Technology Control Regime was ``inadequate to 
the task'' of curtailing North Korean missile activities. Do you agree 
with this assessment?

          Answer. The MTCR has been effective in impeding the flow of 
        missile-related equipment and technology, and in complicating 
        and limiting the technological capability of missile programs 
        of proliferation concern.
          Our MTCR Partners--especially our EU Partners--have 
        implemented much stricter export controls (including on items 
        not listed on the MTCR Annex) and improved information sharing 
        on activities of potential proliferation concern.
          In addition, the MTCR Partners continue to encourage supplier 
        states, such as China and North Korea, to restrict their 
        missile-related exports. They also encourage countries in 
        regions of tension to exercise restraint in the development and 
        deployment of MTCR class missiles.

    Question 16. North Korea has reportedly stated its willingness to 
abide by the MTCR. How much credibility do you give such statements? Do 
you believe North Korean membership in MTCR is advisable, and under 
what conditions?

          Answer. We are not aware that the DRPK currently is 
        interested in abiding by the MTCR. Until the DPRK conforms to 
        international nonproliferation norms, there is no point in 
        speculating about the advisability of its MTCR membership.


                             (all)
</pre></body></html>
